GENERAL SERVICES ADMINISTRATION
   OFFICE OF INSPECTOR GENERAL



      Audit of PBS’s Controls over Security of
    Building Information in Online Environments

         Report Number A070216/P/R/R10003
                  March 31, 2010
Date:         March 31, 2010

Reply to      R. Nicholas Goco
Attn of:      Deputy Assistant Inspector General
              for Real Property Audits (JA-R)

Subject:      Audit of PBS’s Controls over Security of Building Information
              in Online Environments
              Report Number A070216/P/R/R10003

To:           Robert A. Peck
              Commissioner, Public Buildings Service (P)

This report presents the results of our review of the controls PBS has implemented to protect
sensitive building information in online environments. There is a concern that unrestricted
construction documents pose a vulnerability that could be exploited by terrorists or other
criminal elements. Public Buildings Service (PBS) policy includes the following principles
regarding sensitive building information: 1) only give the information to those who have a
“need-to-know”; 2) keep records of who received the information; and 3) safeguard the
information during use and destroy it properly after use. In September 2008, the GSA Office of
Inspector General (OIG) issued a review of PBS’s controls over the security of paper and
removable media. During the course of the audit fieldwork, the OIG became aware of PBS’s use
of electronic project management software (e-PM) applications, as far back as 1998. Many of
these applications, which contain sensitive but unclassified building information, did not appear
to be under the purview of either the GSA Office of the Chief Information Officer (OCIO) or the
PBS OCIO.

Consequently, on September 3, 2008, the OIG notified senior PBS management of our initial
concerns in this area and initiated a separate review focusing on the security controls over
sensitive but unclassified building information in online information systems. Overall, this
review disclosed that PBS needs to place a greater emphasis on security over its sensitive
building information in online environments. In particular, PBS needs to develop and implement
a security strategy for existing e-PM applications and any that may be employed in the future.
PBS also needs to conduct more security awareness training to raise the level of attention to
online data security within the organization.

If you have any questions regarding this report, please contact me or R. Nicholas Goco, Deputy
Assistant Inspector General for Real Property Audits, on (202) 219-0088.


Susan P. Hall
Audit Manager
Real Property Audit Office (JA-R)
       Audit of PBS’s Controls over Security of Building
              Information in Online Environments
                           Report Number A070216/P/R/R10003

EXECUTIVE SUMMARY ................................................................................................. i
INTRODUCTION .............................................................................................................. 1
   Background ..................................................................................................................... 1
   Objective, Scope and Methodology ................................................................................ 2
RESULTS OF AUDIT........................................................................................................ 4
   Although PBS has used e-PM technologies since 1998, the systems have been used
   and procured independent of PBS’s security program. .................................................. 4
   Sensitive data found on GSA internal web-sites indicates the need for additional
   security training and awareness. ..................................................................................... 9
CONCLUSION ................................................................................................................. 10
RECOMMENDATIONS .................................................................................................. 10
MANAGEMENT COMMENTS ...................................................................................... 11
INTERNAL CONTROLS ................................................................................................ 11
APPENDICES

  Management Response ................................................................................................ A-1
  Report Distribution ...................................................................................................... B-1
             Audit of PBS’s Controls over Security of Building
                    Information in Online Environments
                           Report Number A070216/P/R/R10003

EXECUTIVE SUMMARY
                                             Purpose
The objective of our review of the Public Buildings Service’s (PBS) efforts to protect sensitive
building information in online environments was to determine if PBS has implemented
managerial, physical, and technical controls to effectively mitigate risks inherent to sensitive but
unclassified building information in online systems.

                                          Background
A priority for the General Services Administration (GSA) is the physical protection of Federal
employees, the visiting public, and its facilities. There is a concern that unrestricted construction
documents pose a vulnerability that could be exploited by terrorists or other criminal elements.
Public Buildings Service (PBS) policy includes the following principles regarding sensitive
building information: 1) only give the information to those who have a “need-to-know”; 2) keep
records of who received the information; and 3) safeguard the information during use and
destroy it properly after use. This policy encompasses security requirements for the
dissemination of electronic documents, including physical facility information such as building
designs, construction plans, specifications, and any other information considered a security risk.
PBS employees are required to protect sensitive building data using techniques such as data
encryption, appropriate sanitization/disposal of media, and incident handling procedures.

In September 2008, the GSA Office of Inspector General (OIG) issued a review of PBS’s
controls over the security of paper and removable media. During the course of audit fieldwork,
the OIG became aware of PBS’s use of electronic project management software (e-PM)
applications, as far back as 1998. Many of these applications, which contain sensitive but
unclassified building information, did not appear to be under the purview of either the GSA
Office of the Chief Information Officer (OCIO) or the PBS OCIO. Consequently, on September
3, 2008, the OIG notified senior PBS management of our initial concerns in this area and
initiated a separate review focusing on the security controls over sensitive but unclassified
building information in online information systems.

                                        Results in Brief
The Public Buildings Service needs to improve its controls over sensitive building information in
online environments to reduce the risk of inappropriate disclosure of information that may result
in harm to people or property. In particular, electronic project management technologies and
groupware, such as intranet websites, present vulnerabilities that need to be addressed through
stronger controls.


                                                  i
In the late 1990s, PBS project teams began using e-PM technologies as a tool to enable PBS and
its construction contractors to electronically share project data. However, PBS has not included
these systems under the purview of its security program or ensured compliance with Federal
Information Security Management Act (FISMA) requirements. For example, PBS policy
essentially charged construction project managers with security responsibilities without support
from either the GSA Office of the Senior Agency Information Security Officer or the PBS
OCIO. Further, the contractual agreements with the providers of the e-PM solutions in our audit
sample did not include language to enforce IT security requirements or provide for testing rights
and only one specified data archival requirements. PBS is currently conducting a pilot for a new
enterprise-wide e-PM system. Many of the security related concerns raised in this review appear
to be addressed in the contractual language for the new enterprise-wide e-PM system. However,
data remains vulnerable until the new enterprise-wide e-PM system is successfully implemented.

A related issue that also needs to be addressed is that of controls over sensitive but unclassified
data shared generally within the GSA environment through regional web pages. The multiple
instances of inadequately protected sensitive data encountered during the OIG’s testing of PBS’s
groupware/intranet controls indicate a lack of awareness among PBS personnel regarding
information security principles.

Overall, PBS needs to place a greater emphasis on security over its sensitive building
information in online environments. In particular, PBS needs to develop and implement a
security strategy for existing e-PM applications and any that may be employed in the future.
PBS also needs to conduct more security awareness training to raise the level of attention to
online data security within the organization.

Recommendations
We recommend that the PBS Commissioner

   1) Work within the framework of the GSA OCIO security program to develop and
      implement a security strategy for e-PM applications. The security strategy should
      address

       a) The identification and inventory of e-PM applications currently in use that are not
          under the purview of a security program;

       b) Security control testing on existing e-PM applications and procedures for ongoing
          monitoring and correction;

       c) IT security roles for existing PBS e-PM applications as required by GSA CIO P
          2100.1E and identify FISMA points-of-contact for the FISMA points-of-contact list
          published by the GSA OCIO;

       d) Procedural guidance to the Contracting Officer, Contracting Officer Technical
          Representative, Project Manager and Project Executive related to IT contracts or


                                                ii
       contracts containing IT, considering PBS 3490.1A, GSA CIO P 2100.1E, and other
       GSA CIO procedural guides;

   e) Policies and procedures for PBS OCIO oversight during the entire system lifecycle
      for any project using electronic project management tools; and

   f) The amendment of existing contracts, where feasible, related to the acquisition of
      electronic project management services and development of boilerplate contract
      language that includes

       i)     Current applicable GSA, PBS, and Federal laws, regulations and policy;
       ii)    Security control assessment rights;
       iii)   Requirements for the inclusion of security requirements in subcontracts; and
       iv)    Project data archival requirements.

2) Develop and conduct additional security awareness training for project management and
   contracting personnel, especially for those with significant security responsibilities.
   Include a focus on requirements for extranet based e-PM applications where appropriate,
   a review of PBS sensitive but unclassified information policy, and instruction on the
   protection of sensitive data in PBS groupware/intranet environments.




                                              iii
             Audit of PBS’s Controls over Security of Building
                   Information in Online Environments
                          Report Number A070216/P/R/R10003

INTRODUCTION

                                        Background
A priority for the General Services Administration (GSA) Public Buildings Service (PBS) is the
physical protection of Federal employees, the visiting public, and its facilities. There is a
concern that unrestricted construction documents pose a vulnerability that could be exploited by
terrorists or other criminal elements. GSA must balance security concerns with the need for
building data to be accessible to those authorized to conduct Government business.

In order to reduce the exposure to possible attacks or threats to GSA-controlled facilities, PBS
issued in March 2002, GSA Order, PBS 3490.1 (PBS 3490.1) entitled, “Document security for
sensitive but unclassified paper and electronic building information.” The principles of this
policy are: 1) only give the information to those who have a “need-to-know”; 2) keep records of
who received the information; and 3) safeguard the information during use and destroy it
properly after use. This policy defined security requirements for the dissemination of electronic
documents, including physical facility information such as building designs, construction plans,
specifications, and any other information considered a security risk. On June 1, 2009, PBS
updated its sensitive but unclassified policy with GSA Order PBS 3490.1A, entitled “Document
security for sensitive but unclassified building information.” The revised policy requires PBS
employees to adhere to encryption, sanitization/disposal, and incident handling requirements.

In September 2008, the GSA Office of Inspector General (OIG) issued a review of PBS’s
controls over the security of paper and removable media entitled “Audit of PBS’s Controls over
Security of Building Information, Report Number A070216/P/R/R08005.” The OIG found that
the implementation of the controls to meet the requirements for safeguarding sensitive building
information on hardcopy and removable media across PBS varied widely; oversight practices
were inconsistent; and many contracts did not include the contractor’s responsibility to use
reasonable care to protect sensitive building information. The review also disclosed that while
the majority of PBS staff interviewed were aware of PBS’s sensitive but unclassified policy, few
had received formal training in the requirements and how to implement them.

During the course of audit fieldwork, the OIG became aware of PBS’s use of electronic project
management software (e-PM) applications, as far back as 1998. Many of these applications,
which contain sensitive but unclassified building information, did not appear to be under the
purview of either the GSA Office of the Chief Information Officer (OCIO) or PBS OCIO. These
tools were being provided by various software vendors and application service providers.
Consequently, on September 3, 2008, the OIG notified senior PBS management of our initial
concerns in this area and initiated a separate review focusing on the security controls over
sensitive but unclassified building information in online information systems.



                                               1
                                 Objective, Scope and Methodology
The objective of our review of PBS’s efforts to protect sensitive building information in online
environments was to determine if PBS has implemented managerial, physical, and technical
controls to effectively mitigate risks inherent to sensitive but unclassified building information in
online systems.

To accomplish this audit objective we performed fieldwork primarily in PBS’s National Office,
National Capital Region, Southeast Sunbelt Region, and Mid-Atlantic Region. During
fieldwork, we performed the following tasks:

      •    Obtained background information including Office of Management and Budget Circulars
           and memoranda; National Institute of Standards and Technology (NIST) publications; the
           Federal Information Security Management Act (FISMA); GSA Information Technology
           (IT) Security Policy, (GSA CIO P 2100.1D, dated June 21, 2007 and CIO P 2100.1E,
           dated July 2, 2009); and prior GSA Office of Inspector General audit reports.

      •    Reviewed e-PM vendor documentation including stated security features, such as access
           controls for data and functions.

      •    Obtained internal PBS documentation including PBS FISMA Certification and
           Accreditation (C&A) documentation.

      •    Interviewed PBS National and Regional officials to determine what controls they have in
           place to ensure the security of sensitive building information in online systems.

      •    Interviewed GSA senior agency information security officials.

      •    Examined GSA's groupware environment to identify sensitive but unclassified data, as
           well as links to this data that may exist therein, that may be vulnerable to unauthorized
           access.

      •    Reviewed six judgmentally selected PBS construction projects using electronic project
           management (e-PM) tools 1 provided by various software vendors and application service
           providers to determine

                        o If the projects contained sensitive but unclassified information, and the
                          nature of that information;
                        o The basis for e-PM vendor selection;
                        o The actions PBS project teams took to ensure the e-PM application/system
                          met applicable GSA/PBS security requirements;
                        o If contract language stated responsibilities for safeguarding GSA data,
                          including sensitive but unclassified information;

1
    One of these e-PM tools was being used for over 50 projects and had over 900 users.



                                                           2
                  o If contract language provided GSA vulnerability testing rights; and
                  o The procedures for data archival at project completion.

The audit work was conducted between September 2008 and December 2009. We conducted
this performance audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.




                                              3
RESULTS OF AUDIT
The General Services Administration (GSA) Public Buildings Service (PBS) needs to improve
its controls over sensitive building information in online environments to reduce the risk of
inappropriate disclosure of information that may result in harm to people or property. In
particular, electronic project management (e-PM) technologies and groupware, such as intranet
websites, present a vulnerability that needs to be addressed through stronger controls.

Although PBS has used e-PM technologies since at least 1998, the systems have been used and
acquired independent of the PBS security program. As a result, PBS has not had the security in
place to ensure that there are adequate safeguards over sensitive building information. The use
of these e-PM technologies grew out of a need to electronically share data between PBS and its
contractors for construction projects. Prior PBS policy placed responsibility for the security
essentially with its construction project managers; however, no support, training, or guidance
was provided to assist in implementing security controls. Further, most contractual agreements
with the providers of the e-PM solutions in our audit sample did not include language to enforce
IT security requirements, such as requiring the systems to be FISMA compliant or provide for
testing rights. These clauses are necessary to ensure the security and availability of vital building
information.

PBS is currently conducting a pilot for a new enterprise-wide e-PM tool that will be physically
located in an internal data center. Many of the security related concerns raised in this review
appear to be addressed in the contractual language for the new enterprise-wide e-PM system.
However, until the new system is fully implemented, the risk that sensitive but unclassified data
is not adequately protected still exists for e-PM applications.

In addition to the e-PM technologies issue, we found multiple instances of inadequately
protected sensitive data during our testing of PBS’s groupware/intranet controls, such as building
plans in regional web sites. This suggests a lack of awareness among PBS personnel regarding
basic sensitive information security principles.

Overall, PBS needs to place a greater emphasis on security over its sensitive building
information in online environments. In particular, PBS needs to develop and implement a
security strategy for existing e-PM applications and any that may be employed in the future.
PBS also needs to conduct more security awareness training to raise the level of attention to
online data security within the organization.

Although PBS has used e-PM technologies since 1998, the systems have been used and
procured independent of PBS’s security program.

The e-PM tools are secured web-based applications that are used for 1) team communication and
document management; 2) work flow and process automation, and; 3) project management of
design and construction activities. Also known as “Construction Project Extranets,” these
technologies offer communication platforms, project management functionalities, and hosted
collaboration spaces for architecture, engineering, and construction projects, which are usually
hosted by application service providers. By using e-PM applications, all project team members


                                                 4
have access to the same information at the same time, from any location, which improves project
timeliness, accuracy, and efficiency. Standardization allows for efficient training, optimization
of tool utilization, and consolidation of all project information for better program management.
Additionally, a complete audit trail of communications, activities, and dates is generated,
reducing claim risks.

At PBS, a reduction in administrative tasks, improvement in request for information turnaround
time, and the ability to measure project performance based on the national measures for budget
and schedule have all been noted as benefits of e-PM technologies. Although PBS has no formal
national policy regarding e-PM technology, regional executives have been encouraged to
advocate their use and PBS encourages its project managers to take advantage of the many
benefits e-PMs afford.

Even though PBS project teams have used many e-PM technologies for over a decade, the
systems have not been under the purview of a security program. Prior PBS policy assigned e-
PM security to system users; however, no support or guidance was set up to implement security
requirements. Further, the e-PM applications were acquired using multiple arrangements
without input or oversight by IT security staff. As a result of the lack of oversight, security
control testing and system monitoring were not performed and Federal Information Security
Management Act (FISMA) compliance was not addressed. In addition, security requirements
were not addressed in contracts in cases where contractors provided e-PM software.

Prior policy assigned security responsibilities to users.

Until its revision, the March 2002 GSA Order, PBS 3490.1 (PBS 3490.1) entitled, “Document
security for sensitive but unclassified paper and electronic building information,” placed
responsibility for e-PM security with system users; essentially construction project managers as
well as other project team members. According to the policy that remained in effect until June
2009, authorized users of project extranets for e-PM applications that transfer sensitive but
unclassified building information were required to verify and certify to the Government
Contracting Officer that physical and technical GSA security requirements, as determined by the
PBS CIO, were met.

Based on the policy, the authorized users had to determine the adequacy of the technical security
controls in the e-PM products under consideration. However, additional guidance or technical
support was not set up to assist the users. For example, PBS had not established a list of
approved e-PM vendors, specific guidance on required e-PM security features, or procedures for
PBS CIO involvement in the e-PM acquisition process to facilitate this verification and
certification process.

In addition, none of the project managers, contracting officers, or project executives we
interviewed during our review received training beyond the standard periodic GSA CIO IT
Security Awareness Training for GSA Employees. As was previously reported in the September
2008 OIG report (Report Number A070216/P/R/R08005), the majority of PBS staff interviewed
were aware of PBS’s sensitive but unclassified policy, but few had received formal training in
the requirements and how to implement them. Consequently, there are no personnel with


                                                  5
significant security responsibilities assigned to these extranet-based applications that have the
advanced technical security training required to fulfill these security responsibilities. Given this
situation, none of the project teams in our sample confirmed that the required verifications and
certifications were performed.

In June 2009, the policy was revised. The new policy, PBS 3490.1A, requires PBS associates to
adhere to encryption, sanitization/disposal, and incident handling. However, the new policy does
not specifically discuss the IT security responsibilities for e-PM applications. According to the
PBS OCIO, it is now responsible for the security of these applications.

Multiple sources for e-PM applications create oversight issues.

The e-PM applications being used by PBS were provided through multiple arrangements. In
some cases, PBS acquired and owned the application. In other cases, the e-PM software being
used on a project was provided by one of the contractors on the projects, such as the
architect/engineer, the construction manager, or the general contractor. Since these e-PM
systems were not procured through an information technology vehicle, they had no visibility in
GSA's annual Office of Management and Budget Exhibit 53, which identifies GSA’s IT
investment portfolio.

While certain e-PM systems were under PBS’s control and all the e-PM software packages had
stated security features, the PBS OCIO was not consulted by the project teams for any of the
projects in our audit sample prior to the implementation of the e-PM tools. In some cases,
project personnel were assisted by knowledgeable internal business line technical support, but
there was no formal process for their involvement. In addition, internal business line technical
support did not get involved if an architectural/engineering firm or construction manager owned
the e-PM system, as was the case in three of our six sample projects.

Since the applications were not under the purview of a security program, oversight and security
measures were not implemented and FISMA was not addressed.

While PBS officials have solicited information regarding the use of e-PM solutions in the
regions, the identification and security controls testing and monitoring of these applications has
not occurred. As of July 29, 2008, neither the GSA OCIO nor the PBS OCIO had an inventory
of the e-PM applications being used at PBS. Given that neither office was involved in the
selection or acquisition of the e-PM systems, they could not determine whether the e-PM
systems meet applicable agency security requirements. As of December 8, 2009, security
officials for these e-PM systems had not been assigned. Without these systems being identified,
tested, and monitored, PBS does not have adequate assurance that the risks inherent to systems
containing sensitive building information have been kept to an acceptable level.

A central tenet to providing security for systems is assurance of confidentiality, integrity,
availability, and accountability of systems through risk-based management. Security control
testing and monitoring would be part of the controls for risk-based management, however, these
controls were not implemented for existing e-PM systems. Vulnerability testing conducted by
the GSA CIO, as described in GSA CIO P 2100.1E, usually includes vulnerability scanning of


                                                 6
operating systems, databases, and web applications on a quarterly basis, or when significant new
vulnerabilities potentially affecting the system are identified and reported. Although some of the
internally supported e-PM applications have implemented vulnerability scanning since we
initiated this review, none of the externally supported or owned e-PM systems have conducted
these tests. Since the effectiveness of security controls in these existing applications are not
routinely monitored and evaluated against known vulnerabilities and configuration issues, PBS’s
sensitive building information could be vulnerable to unauthorized access.

Many of the e-PM applications used at PBS were not compliant with FISMA. FISMA requires
each agency to develop, document, and implement an agency-wide information security program
that provides information security for the information and information systems that support the
agency, including those provided or managed by another agency, contractor, or other source. In
addition to other requirements, this program must include a risk assessment addressing
unauthorized access, use, disclosure, disruption, modification, or destruction of information and
information systems, a system security plan, security awareness training, periodic control testing,
a remedial action process to address any deficiencies in the information security policies,
procedures, and practices of the agency, an incident response process, and a business continuity
plan. Office of Management and Budget Memorandum M-07-19, “FY 2007 Reporting
Instructions for the Federal Information Security Management Act and Agency Privacy
Management,” dated July 25, 2007, states that FISMA applies to services which are fully or
partially provided, including agency hosted, outsourced, and software-as-a-service (SaaS)
solutions. In support of these requirements, GSA CIO P 2100.1E requires that every IT system,
both Government and contractor operated, must undergo a security control review annually2 .

Since initial deployment, existing e-PM applications continue to operate without FISMA
certification and accreditation. As of December 8, 2009, security officials for these e-PM
systems, as outlined in GSA CIO P 2100.1E, have not been assigned. Although the contract for
the new enterprise-wide e-PM system requires the offeror to work with PBS on the e-PM FISMA
certification and accreditation (C&A), the existing e-PM systems may still be at risk.

When e-PMs were provided by contractors, the contracts did not include security requirements.

When e-PM software being used on a project is provided by one of the contractors on the project,
such as the architect/engineer, the construction manager, or the general contractor, the contract
should address requirements associated with the confidentiality, integrity, and availability of
sensitive building data in the application. At the project level, PBS system owners, along with
the contracting officer and system program managers, share in the responsibility for ensuring IT
security requirements are included in IT contracts or contracts including IT requirements,
according to GSA CIO P 2100.1E. Although two of the projects sampled in our review
referenced PBS sensitive but unclassified information policy, none of the sampled contracts
contained direct references to GSA CIO IT security policy, which imposes a robust set of control
requirements to protect GSA’s information and information systems. Without GSA CIO IT

2
 Annual reviews must use the current version of NIST SP 800-53, "Recommended Security Controls for Federal
Information Systems," and CIO IT Security 04-26, "FISMA Implementation." Note that NIST SP 800-53 Revision
2 was released in December 2007.



                                                     7
security requirements specified in existing e-PM contracts, providers of e-PM solutions or
support may not provide appropriate safeguards to prevent unauthorized users from accessing
sensitive building information.

Four control areas were assessed when reviewing contractual agreements as part of this audit:
GSA CIO IT security policy adherence, security control testing rights, archival data availability,
and requirements for the proper handling of sensitive but unclassified building (SBU) data. For
the six sample projects in this review, none of the contracts included GSA IT security policy
requirements or security control testing rights. Only one contract established data archival
requirements.    Only two contracts contained sensitive but unclassified data handling
requirements as defined by PBS policy. As a result, the existing e-PM systems have not been
properly tested for the required technical, operational, and managerial controls necessary to
ensure the confidentiality of sensitive data and may still pose a security risk.

Only one of the six contracts sampled during our review utilized an in-house e-PM application
on an internally owned and administered hardware and software platform 3 . After the audit
fieldwork identified the application, PBS conducted security testing on the application. PBS has
not conducted security testing on the other five sample projects, which are either fully or
partially supported by non-GSA resources. None of these contracts provide PBS with security
control testing rights. Consequently, GSA does not have a contractual right to conduct testing
where the risk to sensitive building data is at its highest. GSA CIO P 2100.1E requires GSA task
orders and contracts to allow the government or its designated representative (i.e. third party
contractor) to review, monitor, test, and evaluate the proper implementation, operation, and
maintenance of the security controls; including, but not limited to, documentation review, server
configuration review, vulnerability scanning, physical data center reviews, and operational
process reviews. Until the existing contracts are amended to include security control testing
rights for PBS, the effectiveness of the security controls in externally supported e-PM
applications is uncertain.

Construction project data must be available after a project is complete to address any outstanding
legal issues, including potential litigation, and to support future efforts regarding the facilities
involved in the project. Additionally, data loss can arise from disaster, hardware failure,
sabotage, etc. Proper data archival helps to address these risks. However, four out of five of the
externally supported e-PM contracts in our sample did not have archival requirements for project
data.

The September 2008 OIG report observed that many contracts did not include the contractor’s
responsibility to use reasonable care to protect sensitive building information. In the current
review, only two of the sampled projects’ contracts referenced PBS sensitive but unclassified
data protection policy. As such, the contracts for the other e-PM solutions currently utilized in
PBS construction projects did not have the PBS sensitive but unclassified data handling
requirements necessary to provide the awareness and accountability needed to protect sensitive
building information.



3
    This e-PM tool was being used for over 50 projects and had over 900 users.

                                                           8
Although PBS’s new e-PM system should correct many of these risks, until its development is
complete and adopted by all projects, risks will remain.

PBS is in the pilot phase of a new enterprise-wide e-PM system implementation that should
address Federal, GSA CIO and PBS security requirements. The contract for the new system
includes provisions for the certification and accreditation of this application according to FISMA
requirements. The contract for the new e-PM system also appears to be in compliance with GSA
CIO IT security policy and related procedural guides, including vulnerability testing, and PBS
sensitive but unclassified policy requirements. The new enterprise-wide e-PM contract addresses
archival requirements and PBS will control physical custody of the system. The new enterprise-
wide e-PM contract language addresses both PBS security requirements and GSA CIO security
policy. Furthermore, these requirements are carried over to subcontractors. This new system
was expected to be available for use on construction projects funded through the American
Recovery and Reinvestment Act of 2009. However, the system’s development has yet to be
completed and fully implemented. Until the new e-PM system is fully adopted by all of the PBS
project teams and the use of other e-PM applications ceases, the security vulnerabilities will
remain and PBS will need to develop a security strategy to mitigate these risks.

Sensitive data found on GSA internal web-sites indicates the need for additional security
training and awareness.

PBS 3490.1A notes, “Disseminators of SBU building information are responsible for providing
the first line of defense against misuse,” and requires employees to have security training on the
procedures in the order. GSA policy also requires all GSA personnel and contractors to receive
annual IT security awareness training as part of its overall security program. Those personnel
with significant security related responsibilities must receive the applicable training necessary to
carry out their duties as well. A lack of familiarity with GSA’s security policy may lead to
individuals inadvertently making sensitive data available to unauthorized users.

Vulnerabilities identified during OIG control testing suggest a lack of awareness regarding what
composes sensitive building information and proper use of the applicable technical, managerial,
and operational security controls necessary to protect such information. During control testing
conducted in May 2007 through July 2007 by the GSA OIG, access control weaknesses were
identified in a number of databases, including a PBS Project Information Portal (PIP). This
portal included sensitive design documents, housing plans, floor plans, financial data, and
photographs of PBS construction projects. Corrective security measures have since been
implemented.

As part of this review, further control testing was performed in November 2008 on PBS internal
groupware and intranet sites. This control testing identified vulnerabilities regarding sensitive
building information. Examples of the data found included building plans with secure functions
identified, a report on the structural analysis of a Federal building, links to the Customer Profile
System (CPS), and banking information for contractors. The OIG immediately provided PBS
officials with the relevant details, including the regional Insite 4 websites examined, and the
4
 InSite is a federal government computer system, for official use only, by GSA employees and contractors with
network access through GSA systems. Insite is not accessible to the general public.

                                                        9
system or application concerned. Out of 35 total applications/links/web pages identified that
may potentially be storing or processing sensitive but unclassified building data, 24 (68.6
percent) did not have any further access controls established, outside of a user having access to
GSA Insite. As such, these 24 applications/links/web pages were not restricting access based on
the concept of "need-to-know." In response to our testing results, PBS officials have emphasized
to employees the need to protect sensitive building information and corrective measures have
been implemented or are in progress at this time to reduce or eliminate these vulnerabilities.
These incidents suggest the need for additional and continuing information security awareness
training.

CONCLUSION
PBS needs to improve the security over sensitive building information in online environments to
reduce the risk of inappropriate disclosure of information that may result in harm to people or
property. In particular, PBS needs to emphasize security for electronic project management (e-
PM) technologies, groupware and intranet websites.

While e-PM technologies have been in use for years, PBS project personnel have been using and
acquiring these applications independent of the PBS security program. As a result, PBS has not
had the security in place to ensure that these applications have adequate technical security
controls to safeguard sensitive building information. Although PBS has made considerable
progress toward the implementation of an enterprise-wide e-PM system that will manage many
of the risks highlighted in this report, security risks will continue with existing e-PM
deployments as well as any that are used in the future. Given this situation, PBS needs to work
with the GSA OCIO to develop and implement a security strategy for current and future e-PM
applications and PBS also needs to ensure that its enterprise-wide e-PM application meets
security requirements.

With regard to groupware, the multiple instances of inadequately protected sensitive data
encountered during the OIG’s testing of PBS’S groupware/intranet controls suggests a lack of
awareness among PBS personnel regarding basic sensitive but unclassified information security
principles, such as only providing information to those individuals with a legitimate need for
access. As such, PBS needs to conduct more security awareness training to raise the level of
attention to online data security within the organization.

RECOMMENDATIONS
We recommend that the PBS Commissioner

1) Work within the framework of the GSA OCIO security program to develop and implement a
   security strategy for e-PM applications. The security strategy should address

   a) The identification and development of the inventory of e-PM applications currently in use
      that are not under the purview of a security program;




                                               10
   b) Security control testing on existing e-PM applications and procedures for ongoing
      monitoring and correction in order to manage the risk of harm that could result from the
      unauthorized access, use, disclosure, disruption, modification, or destruction of the
      sensitive data contained in these applications or the unavailability of the applications
      themselves;

   c) IT security roles for existing PBS e-PM applications as required by GSA CIO P 2100.1E
      and identify FISMA points-of-contact for the FISMA points-of-contact list published by
      the GSA OCIO;

   d) Procedural guidance to the Contracting Officer, Contracting Officer Technical
      Representative, Project Manager and Project Executive related to IT contracts or
      contracts containing IT, considering PBS 3490.1A, GSA CIO P 2100.1E, and other GSA
      CIO procedural guides;

   e) Policies and procedures for PBS OCIO oversight during entire system lifecycle for any
      project using electronic project management tools; and

   f) The amendment of existing contracts, where feasible, related to the acquisition of
      electronic project management services and development of boilerplate contract language
      that includes

       i)     Current applicable GSA, PBS, and Federal laws, regulations, and policy;
       ii)    Security control assessment rights;
       iii)   Requirements for the inclusion of security requirements in subcontracts; and
       iv)    Project data archival requirements.

2) Develop and conduct additional security awareness training for project management and
   contracting personnel, especially to those with significant security responsibilities. Include a
   focus on requirements for extranet based e-PM applications where appropriate, a review of
   PBS sensitive but unclassified policy, and instruction on the protection of sensitive but
   unclassified data in PBS groupware/intranet environments.

MANAGEMENT COMMENTS
Management generally concurred with the report recommendations.


INTERNAL CONTROLS
As discussed in the Objective, Scope, and Methodology section of this report, the review focused
on whether PBS has adequate controls in place to protect sensitive building information in online
environments. Related management control issues are discussed in the context of the review
findings.



                                                  11
Audit of PBS’s Controls over Security of Building
       Information in Online Environments
         Report Number A070216/P/R/R10003

                    Appendix A

                Management Response




                       A-1
             Audit of PBS’s Controls over Security of Building
                    Information in Online Environments
                          Report Number A070216/P/R/R10003

                                           Appendix B

                                      Report Distribution

                                                                              Copies

Commissioner, Public Buildings Service (P)                                      1

Office of the Chief Information Officer (IS)                                    1

Regional Administrator, National Capital Region (WA)                            1

Regional Administrator, Southeast Sunbelt Region (4A)                           1

Regional Inspector General for Auditing (JA-W, JA-4)                            2

Regional Inspector General for Investigations (JI-W, JI-4)                      2

Deputy Assistant Inspector General for Information Technology Audits (JA-T)     1

Office of Inspector General (J)                                                 4

Assistant Inspector General for Auditing (JA, JAO)                              2

Assistant Inspector General for Investigation (JI)                              1

Director, Internal Control & Audit Division (BEI)                               1




                                               B-1
